 Department of Health and Human Services
                    OFFICE OF 

               INSPECTOR GENERAL 





   THE UAW RETIREE MEDICAL 

BENEFITS TRUST PROPERLY CLAIMED 

  EARLY RETIREE REINSURANCE 

   PROGRAM REIMBURSEMENTS



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov. 
                                            




                                                       Sheri L. Fulcher

                                                  Regional Inspector General 


                                                         December 2012

                                                         A-05-11-00108 

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov



 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                                INTRODUCTION 


BACKGROUND

Early Retiree Reinsurance Program

The Patient Protection and Affordable Care Act, P. L. No. 111–148 and the Health Care and
Education Reconciliation Act of 2010, P.L. No. 111–152 (together, the Affordable Care Act),
enacted on March 23, 2010, established the Early Retiree Reinsurance Program (ERRP). The
ERRP is a temporary reinsurance program designed to reimburse participating employment-
based plans (plan) for a portion of the cost of providing health insurance to early retirees aged 55
or older and to certain eligible family members. The Center for Consumer Information
Insurance Oversight (CCIIO), a part of the Centers for Medicare & Medicaid (CMS) within the
Department of Health and Human Services, is responsible for program administration.1

The Affordable Care Act § 1102(e) appropriated $5 billion in funding for the ERRP. The ERRP
began in October 2010 and is scheduled to end on January 1, 2014. As of January 2012, ERRP
reimbursements totaled nearly $4.7 billion.

Federal Requirements and the Center for Consumer Information Insurance Oversight
Guidance

To participate in the ERRP, the plan and its sponsor must meet the requirements of 45 CFR part
149, and the sponsor’s application to participate in the program must be approved by the CCIIO.2
Early retirees must be individuals who are (1) aged 55 or older, (2) not eligible for health
insurance coverage under Medicare, and (3) not active employees eligible for coverage under an
employer’s health insurance plan (section 1102(a)(2)(C) of the Affordable Care Act).

Claims submitted by plan sponsors for ERRP reimbursement must be based on actual costs
incurred for providing health benefits to early retirees and their spouses, surviving spouses, and
dependents (the Affordable Care Act § 1102(c)(1)(B)).3 ERRP reimbursement is limited to 80
percent of the health benefit costs for all claims incurred by the plan during the plan-year. To be
eligible for reimbursement, claims for health benefit costs attributable to each individual early


1
   Until December 2011, the Office of Consumer Information and Insurance Oversight within the Department of
Health and Human Services administered the program. The name CCIIO used throughout this report refers to
CCIIO and its predecessor.
 
2
   Generally, the regulation uses the term “sponsor” when referring to the entity that applies for and receives
reimbursement under the ERRP and uses the term “employment-based plan” when referring to the health benefits
arrangement that the plan must offer (75 Fed. Reg.24451 (May 5, 2010)).
 
3
   the term ‘‘health benefits’’ includes medical, surgical, hospital, prescription drug, and other benefits as determined
by the Secretary of Health and Human Services, whether self-funded or delivered through the purchase of insurance
or otherwise (section 1102(a)(2)(A) of the Affordable Care Act). The CCIIO guidance Claims Ineligible for
Reimbursement Under the Early Retiree Reinsurance Program (Sept. 28, 2010) clarifies that CCIIO provides ERRP
reimbursement only for items and services for which Medicare generally reimburses.


                                                            1

retiree must be between $15,000 (cost threshold) and $90,000 (cost limit) (45 CFR §§149.100
and 149.115).

Plans must use ERRP reimbursements to reduce the health benefit costs of the plan (section
1102(c)(4) of the Affordable Care Act). This section also requires CCIIO to develop a
mechanism to monitor the appropriate use of ERRP reimbursement. In the preamble to the
interim final rule (75 Fed. Reg. 24456 (May 5, 2010)) that implemented ERRP, CCIIO states that
sponsors must “… maintain the level of effort in contributing to support their applicable plan …
[as it did before its participation in the ERRP]. Otherwise, sponsors might circumvent the
prohibition on using the program funds as general revenue….” We refer to this requirement as
the maintenance-of-contribution requirement.

According to the CCIIO’s Guidance on Complying with the Prohibition on Using Early Retiree
Reinsurance Program Reimbursements as General Revenue (Aug. 19, 2011), a plan is presumed
to have properly used its ERRP reimbursement in a given year if the plan meets the maintenance-
of-contribution requirement. To meet that requirement, the plan’s contribution toward the health
benefit cost for the year must be equal to or more than the contribution it made in its baseline
period.4

The UAW Retiree Medical Benefits Trust

The UAW Retiree Medical Benefits Trust (the Trust), established in 2010, was created to
administer health benefits for retirees of General Motors, Ford, and Chrysler. The Trust provides
medical and prescription drug benefits to eligible retirees, their spouses, and dependents. The
Trust is the plan sponsor.

In July 2010, CCIIO approved the Trust’s application for participation in the ERRP.5 The Trust
stated in its application that the ERRP reimbursement would be used exclusively for Trust
purposes, including mitigating the rate of increase in participant cost sharing, lowering the cost
of health benefits provided by the Trust, and extending the period of time that the Trust will be
able to provide coverage to UAW retirees. As of April 2011, CCIIO had reimbursed the Trust
$220,667,611 for health benefit costs that the Trust had claimed on behalf of 16,184 early
retirees from January 1, 2010 through March 31, 2011.




4
  The Guidance on Complying with the Prohibition on Using Early Retiree Reinsurance Program Reimbursements
as General Revenue specifies that plan sponsors may use any of the following periods as their baseline period for
determining their contribution level: (1) the plan sponsor’s most recent 12-month plan-year that ended before the
date the plan sponsor submitted its ERRP application; (2) a period consisting of up to 5 of the plan sponsor’s most
recent consecutive 12-month plan-years, including the plan sponsor’s most recent 12-month plan-year that ended
before the plan sponsor submitted the ERRP application; and (3) a single 12-month plan-year for which the plan
sponsor’s budget for health benefits and/or health benefit premiums was finalized or for which a collective
bargaining agreement was ratified before June 1, 2010.
5
  CCIIO began accepting applications of plan sponsors for participation in the ERRP on June 29, 2010 (CCIIO press
release, June 29, 2010). 

                                                         2

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the claims that the Trust submitted to CCIIO for
ERRP reimbursements and the Trust’s use of the reimbursements, were in compliance with the
Federal requirements and CCIIO guidance.

Scope

Our review covered early retiree claims for part of 2 plan-years from January 1, 2010, through
December 31, 2010, and from January 1, 2011, through March 30, 2011, for which the Trust
received an ERRP reimbursement of $220,667,611.6 We reviewed only those internal controls
necessary to achieve our objective.

We performed our fieldwork at the UAW Retiree Medical Benefits Trust in Detroit, Michigan.

Methodology

To accomplish our objective, we:

    	 reviewed applicable Federal law and regulations;

    	 interviewed the Trust’s officials to obtain an understanding of their policies and 

       procedures related to ERRP; 


    	 reviewed the Trust’s policies and procedures related to claim processing and employee
       eligibility for health benefits;

    	 determined whether the claims submitted by the Trust to CCIIO were for eligible early
       retirees by

             ○	 obtaining early retiree lists that the Trust submitted to CCIIO and early retiree list
                response files that CCIIO returned to the Trust;

             ○	 comparing the Social Security numbers of 16,184 early retirees who participated
                in ERRP during our audit period to Medicare eligibility data from Medicare’s
                Enrollment Database (EDB);7 and
6
   Once an application was approved, a plan sponsor was allowed to apply for reimbursement for costs incurred for
plan-years that started before June 1, 2010, as long as they ended after June 1, 2010 (for example, calendar year
2010 plans) (75 Fed. Reg. 24457 (May 5, 2010)). If a plan-year began before June 1, 2010, and ended after June 1,
2010, the amount of claims for services provided before June 1, 2010, could be counted toward the threshold.
However, only the amount of claims for services provided on or after June 1, 2010 that exceeded the threshold
would be eligible for ERRP reimbursement (45 CFR §149.105).
 
7
   The EDB is the authoritative source for all Medicare entitlement information. It contains information on all
individuals entitled to Medicare, including demographic information and enrollment dates.

                                                        3

             ○	 verifying the employment status, health benefit status, and spouse or dependent
                status documented in the Trust’s electronic system files for the 16,184 early
                retirees;

    	 determined whether the claims submitted by the Trust to CCIIO were for the allowable
       health benefit costs by

             ○	 comparing procedure codes on the claims that the Trust submitted to CCIIO
                against the excluded Common Procedure Terminology (CPT) and Healthcare
                Common Procedure Coding System (HCPCS) codes listed in CCIIO guidance8
                and

             ○	 recalculating total health benefit costs and reimbursable costs between cost
                threshold and cost limit for each of 16,184 early retirees;

    	 determined whether the Trust used the ERRP reimbursement to offset any increases in its
       health benefit plan cost and premiums by

             ○	 reviewing the Trust’s accounting records and bank statements to determine how
                the Trust accounted and used the ERRP reimbursements; and

             ○	 reviewing the Committee meeting minutes from January 2010 through August
                2011 to determine how the Trust intended to use the ERRP reimbursement; and

    	 discussed the results of our audit with the Trust and CCIIO representatives.


We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                          RESULTS OF AUDIT

The claims that the Trust submitted to CCIIO for ERRP reimbursement during our audit period
and the Trust’s use of the reimbursements complied with Federal requirements and guidance.
The claims were based on allowable costs of $580,808,547 that the Trust expended within the
plan years for the health benefits provided to 16,184 eligible early retirees and their family
dependents. Of this amount, $275,834,514 was attributable to costs between the cost threshold


8
  The CCIIO guidance Claims Ineligible for Reimbursement under the Early Retiree Reinsurance Program
(Sept. 28, 2010) and Coding Details for Ineligible Services Under Medicare Which Will Apply to ERRP (July 18,
2011) specified CPT and HCPCS codes for services not eligible for reimbursement under ERRP.


                                                       4
and cost limit.9 On the basis of such claims, we determined that CCIIO reimbursed the Trust
$220,667,611 (80 percent of the costs between the individual cost threshold and the cost limit).
Because the Trust met the maintenance-of-contribution requirement, its use of the ERRP
reimbursements was considered appropriate in accordance with CCIIO’s guidance. We are not
submitting any recommendations to the Trust.




9
  The CCIIO’s reimbursement is limited to 80-percent of the portion of the health benefit costs attributable to the
claims between $15,000 (cost threshold) and $90,000 (cost limit) for plan years that start on any date before October
1, 2011 (45 CFR §§149.100 and 149.115).


                                                         5

